                                U.S. Department of the Interior
                        Office of Inspector General



Evaluation Report on
State Operated Coal Regulatory Programs



Active coal mining




                                            Reclaimed mining site




                             Office of Surface Mining


Report No. S-IN-OSM-0087-2003                October 2004
           United States Department of the Interior

                            Office of Inspector General
                                   Eastern Region Audits
                                     381 Elden Street
                                         Suite 1100
                                  Herndon, Virginia 20170




                                                                         October 27, 2004

Memorandum

To:            Director - Office of Surface Mining Reclamation and Enforcement

From:          William J. Dolan, Jr.
               Regional Audit Manager, Eastern Region

Subject:       Final Evaluation Report on State Operated Coal Regulatory Programs
               Office of Surface Mining Reclamation and Enforcement
               (Report No. S-IN-OSM-0087-2003)

       This report presents the results of our evaluation of the Office of Surface Mining
Reclamation and Enforcement’s (OSM) State Operated Coal Regulatory Programs. Our
review focused on the adequacy of inspection and bond release activities, potential cost
savings, and OSM’s fiscal year 2002 Government Performance and Results Act (GPRA)
performance measures.

        We concluded that the processes for performing surface mining inspections and
bond releases were in compliance with the Surface Mining Control and Reclamation Act
(SMCRA) and OSM regulations for the four states included in our evaluation. We also
identified potential cost savings and needed improvements in OSM’s development of and
reporting on GPRA performance measures.

       The Director of OSM responded to the draft report and its six recommendations
on September 17, 2004. Based on his response and additional information subsequently
provided, we consider two recommendations resolved and implemented, two
recommendations resolved but not implemented, and two recommendations unresolved.

       The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.
App. 3) requires semiannual reporting to Congress on all reports issued, actions taken to
implement recommendations, and recommendations that have not been implemented.

       Please provide a response to this report by December 15, 2004. The response
should provide information requested in Appendix 5 and should be addressed to Roger
LaRouche, Assistant Inspector General for Audits, Office of Inspector General
(MS 5341-MIB).
        We appreciate the cooperation we received from OSM staff during our evaluation.
If you have any questions regarding this report, please contact me at (703) 487-8011.

Attachment

cc:    Assistant Secretary - Land and Minerals Management
       Audit Liaison Officer - Land and Minerals Management
       Audit Liaison Officer - Office of Surface Mining Reclamation and Enforcement
       Focus Leader - Management Control and Audit Follow-up, Office of Financial
         Management (Electronic Copy)
EXECUTIVE SUMMARY
State Operated Coal Regulatory Programs
Office of Surface Mining


Background and         The Office of Surface Mining Reclamation and Enforcement
Objectives             (OSM) is the primary Federal agency for carrying out the
                       mandates of the Surface Mining Control and Reclamation Act
                       (SMCRA) of 1977.1 Under SMCRA, OSM is responsible for
                       protecting society and the environment from the adverse
                       effects of surface coal mining operations.

                       The regulation of surface mining is primarily achieved
                       through grants and cooperative agreements with states and
                       Indian Tribes. OSM has an oversight role in the 24 states
                       with approved state regulatory programs and funds 50 percent
                       of these programs. OSM also serves as the regulatory
                       authority for coal mining and reclamation operations in 12
                       other states.

                       Our review focused on the adequacy of inspection and bond
                       release activities, potential regulatory program cost savings,
                       and OSM’s Government Performance and Results Act
                       (GPRA) performance measures.

Results in Brief       We concluded that the processes for performing surface
                       mining inspections and bond releases were in compliance with
                       SMCRA and OSM regulations for the four states included in
                       our evaluation. Also, we concluded that current OSM
                       regulations may require excessive inspections of low-risk
                       mining sites. With respect to OSM’s GPRA reporting, the
                       measure on the amount of bond release acreage is not
                       appropriate because it is not under the control of OSM
                       managers and is output oriented. In addition, we identified
                       weaknesses in the data collection and verification processes.
                       We made six recommendations to the Director of the Office
                       of Surface Mining Reclamation and Enforcement to improve
                       the mine inspection process and GPRA reporting.




1
    Public Law 95-87


                                      i
Agency Response     Based on OSM’s response to our draft report, we consider two
and Office of       recommendations resolved and implemented, two
                    recommendations resolved but not implemented, and two
Inspector General
                    recommendations unresolved.
Reply




                                  ii
TABLE OF CONTENTS

                                                                                                 Page

            Introduction ................................................................           1
                 Background ................................................................        1
                 Objectives and Scope .................................................             2

            Results of Evaluation ...............................................                   3

            Overview .........................................................................      3

            Inspection and Bond Release Activities
            are Adequate ...................................................................        3

            Potential Cost Savings ...................................................              4
               The Regulatory Environment .....................................                     4
               Matching Regulatory Resources to Risk ....................                           5
               Identifying Low-Risk Permits ....................................                    7
               Cost Savings Analysis ................................................               7
               Suggestions for Reducing Costs ................................                      8

            Compliance with Government Performance
            and Results Act (GPRA) ................................................                 9
               Goal Appropriateness .................................................               9
               Data Collection Weaknesses ......................................                    9
               Lack of Data Verification ...........................................               10

            Recommendations .....................................................                  11

            Agency Response and Office of
            Inspector General Reply ................................................               11

            Appendices

            1.   Evaluation Scope and Prior Audit Coverage .............                           14
            2.   Methodology ..............................................................        15
            3.   Sites Visited and Outside Contacts ............................                   17
            4.   Agency Response to Draft Report ..............................                    18
            5.   Status of Audit Recommendations .............................                     26

            Figure 1 - Non-Compliance Rate 1978-2002 ..................                             5

            Table 1 - Potential Cost Savings for Low-Risk Permits .                                 8


                                 iii
Abbreviations

GPRA ....................Government Performance and Results Act
OMB ..................................Office of Management and Budget
OSM ............................Office of Surface Mining Reclamation
                                                      and Enforcement
PART ................................ Program Assessment Review Tool
SMCRA ............Surface Mining Control and Reclamation Act

Cover Photographs Credit
Active coal mining and reclaimed mining at the Catenary
Mines, Cabin Creek, West Virginia, on September 11, 2003.
OIG photo.




                iv
INTRODUCTION

Background                     Under the authority of the Surface Mining Control and
                               Reclamation Act (SMCRA) of 1977, the Office of Surface
                               Mining Reclamation and Enforcement (OSM) is responsible
                               for reclaiming and restoring land and water degraded by pre-
                               SMCRA mining, minimizing off-site impacts during current
                               mining operations (since 1977), and ensuring that land is
                               restored to beneficial use after mining has ceased.

                               The regulation of surface mining is primarily carried out
                               through grants and cooperative agreements with states.
                               Currently, 24 states have “primacy,” or approved state
                               regulatory programs, which include key elements such as
                               permitting and bonding requirements, performance standards
                               for mining operations, mine inspection and enforcement
                               requirements, and procedures for designating lands as
                               unsuitable for mining. In primacy states, OSM’s mission is
                               one of oversight, back-up enforcement authority, and
                               programmatic and technical assistance. OSM grants finance
                               50 percent of the cost of state regulatory programs. In the 12
                               states without primacy or cooperative agreements to regulate
                               mining on Federal lands, OSM serves as the regulatory
                               authority for coal mining and reclamation operations.

                               Nationwide, state and Federal program inspectors performed
                               88,778 inspections on 8,970 inspectable units in 2002.
                               During these reviews, they wrote 3,961 notices of violation
                               and 322 cessation orders. In addition, OSM conducted 2,297
                               oversight inspections in the 24 primacy states in 2002, usually
                               with state inspectors, writing 19 notices of violation and 4
                               cessation orders.

                               Under its mission goal of environmental protection, OSM has
                               two long-term Government Performance and Results Act
                               (GPRA) goals related to the state regulatory program: (1) to
                               increase the percentage of sites free of off-site impacts and
                               (2) to increase the number of acres released from Phase III
                               bonds.2




2
 The Phase III bond release occurs when a site has been completely reclaimed and the remaining bond has
been returned to the operator.


                                                   1
Objectives and   We performed evaluation work in three primacy states -
Scope            Kentucky, Pennsylvania, and West Virginia - and Tennessee,
                 which is a Federal program state. Kentucky, Pennsylvania,
                 and West Virginia were selected for review because they have
                 the most inspectable units of the 24 primacy states. These
                 three states receive 57 percent of OSM regulatory grant funds
                 and have 74 percent of all inspectable units. Tennessee was
                 selected because its regulatory program is managed by OSM.
                 Our evaluation focused on the adequacy of inspection and
                 bond release activities, potential cost savings, and OSM’s
                 GPRA performance measures. The evaluation was conducted
                 between July and November of 2003 and focused primarily on
                 surface mining regulatory activities in 2001 and 2002. We
                 concluded our work at the end of the survey phase because we
                 determined that the continuation of the evaluation would not
                 identify any additional weaknesses. The Appendices contain
                 detailed information on the scope and prior audit coverage,
                 methodology, sites visited and outside contacts consulted
                 during our evaluation.




                                 2
RESULTS OF EVALUATION

Overview                        We concluded that the state processes for performing surface
                                mining inspections and bond releases were in compliance with
                                SMCRA and OSM regulations. However, we believe that
                                current OSM regulations may result in unnecessary
                                expenditures by both the states and OSM because they require
                                excessive inspections for low-risk mining permits.

                                In addition, we identified weaknesses in OSM’s GPRA
                                reporting. The measure on the amount of bond release
                                acreage is not appropriate because it is not under the control
                                of OSM managers and is output oriented. Also, decision
                                makers may not be provided accurate data because the
                                methods used to collect off-mine site impact data for two of
                                the states are deficient, and because OSM does not verify data
                                provided by the states.

Inspection and                  SMCRA requires that the regulatory authority perform
Bond Release                    inspections averaging not less than one partial3 inspection per
                                month and one complete inspection per quarter for the surface
Activities are
                                coal mining and reclamation operation covered by each
Adequate                        permit. OSM regulations implementing SMCRA make a
                                distinction between requirements for active operations and
                                inactive operations. The inspection requirement for active
                                operations is a minimum of four quarterly complete
                                inspections and eight monthly partial inspections per year.
                                The minimum requirement at inactive operations is four
                                complete inspections and as many partial inspections as
                                necessary. Abandoned mines must be inspected a minimum
                                of once a year.

                                Based on our evaluation of inspection documents and
                                discussions with surface mining inspectors and managers, we
                                found that the surface mining inspection processes in the four
                                states were adequate. We reviewed permit files and/or
                                queried state databases for 49 permits4 for fiscal years 2001
                                and 2002 to determine if the states performed the required
                                number, type, and frequency of inspections. We concluded

3
  A partial inspection is an on-site or aerial review of compliance with only some of the permit conditions
and requirements. A complete inspection is an on-site review of compliance with all permit conditions and
requirements within the entire area disturbed or affected by the surface coal mining and reclamation
operations.
4
  In 2002, the four states had a total of 6,995 permits.


                                                     3
                 that the four states were in compliance with SMCRA and
                 OSM inspection requirements.

                 SMCRA requires surface mining operators to post bonds to
                 cover the cost of reclaiming the site in the event of forfeiture
                 by the operator. The bond is returned or released to the
                 operator by the regulatory authority in three stages as the
                 reclamation progresses. Based on our evaluation and the lack
                 of evidence of any off-site impacts from sites that have been
                 fully reclaimed, we concluded that the bond release processes
                 in the four states were also adequate.

Potential Cost   We determined that OSM and the state regulatory authorities
Savings          could be conducting excessive inspections of low-risk surface
                 mining permits. SMCRA and OSM regulations require a
                 certain number of inspections on every permit, without
                 consideration of the risk of adverse effects posed by the
                 permit. As a result, the four states we reviewed may be
                 spending as much as $1.57 million each year on low-risk
                 inspections, which could be put to better use. State and OSM
                 staff also provided us with several other cost saving
                 suggestions.

The Regulatory   SMCRA was passed in 1977 as the result of Congressional
Environment      concerns about the adverse effects of surface mining including
                 erosion and landslides, flooding, water pollution, fish and
                 wildlife habitat destruction, impaired natural beauty, damaged
                 private property, and safety hazards. However, as noted in
                 OSM’s 2002 annual report, 25 years after the passage of
                 SMCRA, land reclamation and environmental protection have
                 become routine parts of the coal mining process. The success
                 of OSM and the state regulatory authorities in bringing the
                 surface mining industry into compliance with SMCRA is
                 illustrated in Figure 1 by the decrease in the rate of violations
                 between 1978 and 2002.




                                  4
                                      Figure 1 - Non-Compliance Rate 1978-2002

    25%




    20%




    15%




    10%




     5%




     0%
          1978
                 1979
                        1980
                               1981
                                       1982
                                              1983
                                                     1984
                                                            1985
                                                                   1986
                                                                          1987
                                                                                 1988
                                                                                        1989
                                                                                               1990
                                                                                                      1991
                                                                                                             1992
                                                                                                                    1993
                                                                                                                           1994
                                                                                                                                  1995
                                                                                                                                         1996
                                                                                                                                                1997
                                                                                                                                                       1998
                                                                                                                                                              1999
                                                                                                                                                                     2000
                                                                                                                                                                            2001
                                                                                                                                                                                   2002
    Source: OSM Annual Reports                                                                                                                         No. Violations divided
            1978 to 2002                                                                                                                               by No. Inspections


                                                     Of the approximately 91,000 inspections performed in 2002
                                                     by OSM and the states, 95 percent did not result in a notice of
                                                     violation or a cessation order. In addition, almost 93 percent
                                                     of surface mining permits had no off-site impacts5 in 2002.
                                                     Despite this high level of compliance, regulatory authorities
                                                     have not decreased the level of inspections since the Act was
                                                     first passed 25 years ago.

Matching Regulatory                                  We believe there is potential for reducing the number of
Resources to Risk                                    inspections at three types of low-risk operations - those that
                                                     have received their Phase I and Phase II bond releases and
                                                     abandoned sites. We concur with most state and OSM
                                                     personnel we spoke with who believed that 12 annual
                                                     inspections were necessary on sites where active mining or
                                                     reclamation was taking place. Some of them did agree,
                                                     however, that there were instances in which the current
                                                     inspection requirements were higher than necessary for some
                                                     sites.



5
  An off-site impact is anything resulting from a surface coal mining and reclamation activity or operation
that causes a negative effect on people, land, water, structures, or other resources outside the permitted
area.


                                                                                          5
At the end of Phase I, the operator has completed the
backfilling, re-grading, and drainage control for a bonded area
according to the reclamation plan, and the regulatory authority
has inspected the work and approved the bond release. At that
time, 60 percent of bond fees can be released to the permit
holder. Most of the remaining reclamation efforts involve re-
establishing vegetation on the site. However, OSM
regulations still classify post-Phase I bond release sites as
active, and they must be inspected 12 times a year; the same
frequency as sites where heavy equipment is operating or
blasting is occurring.

We believe there is potential to reduce the number of
inspections for many of these post-Phase I release sites. This
reduced number of inspections would reflect the reduced risk
the regulatory authority recognized when it released 60
percent of the bond money. We found that regulations in two
of the states reviewed, Kentucky and West Virginia, do in fact
categorize post-Phase I release sites as inactive, and the states
only require four complete inspections per year on these sites.
No partial inspections are required. OSM has approved these
deviations as equivalent to its own regulations.

We suggest OSM consider reducing the number of inspections
in this category for the other coal producing states. For
example, four complete inspections per year for permits
which have received a Phase I bond release and are identified
by the regulatory authority as low-risk should be adequate.

According to OSM regulations, permits with a Phase II bond
release are classified as inactive and receive four complete
inspections per year. In this phase, the regulatory authorities
are waiting to ensure the surface of the land is stable and
vegetation is re-established before the remainder of the bond
can be released. We suggest OSM consider reducing the
number of inspections in this category. For example, two
complete inspections per year for permits identified by the
regulatory authority as low-risk may be adequate.

Finally, some of the permits classified as abandoned have
been in that status for several years and natural vegetative
processes have stabilized the surface disturbances.
Apparently, there is no OSM procedure for removing these
types of sites from the inventory and OSM and State
authorities continue to perform required annual inspections.
For example, this was a problem in the state of Tennessee



                 6
                                 where several OSM staff suggested cost savings could be
                                 achieved by eliminating unnecessary inspections for
                                 abandoned sites. We suggest OSM consider eliminating the
                                 annual inspections for low-risk abandoned sites and
                                 developing procedures for removing them from the inspection
                                 inventory.

Identifying Low-Risk             Currently, OSM and the state regulatory authorities do not use
Permits                          risk assessment because the inspection regulations treat all
                                 permits equally, without regard for their safety or
                                 environmental records. Still, in some cases, OSM and state
                                 regulatory authorities do indirectly consider risk. OSM
                                 regulations give limited consideration to risk factors by
                                 making a distinction between active and inactive operations.
                                 We were also told that permits with problems might be
                                 inspected more often than the minimum requirements. In
                                 addition, OSM managers mentioned that they have performed
                                 special studies in cooperation with the states that often looked
                                 at high-risk areas, such as blasting and impoundments.6

                                 However, this indirect consideration of risk does not focus
                                 inspection resources on those permits that pose the greatest
                                 potential threat to public safety or the environment. OSM
                                 should consider using risk assessment to reduce the number of
                                 inspections they perform because their regulatory program
                                 statistics show that since 1998 approximately 93 percent of
                                 surface mining permits have been free of off-site impacts and
                                 95 percent of all inspections did not result in violations.

                                 OSM and state regulatory authorities already have the
                                 experience and expertise to identify which permits pose the
                                 least risk and, therefore, could receive fewer inspections. In
                                 addition to operational status, OSM authorities could consider
                                 factors such as enforcement history (including off-site
                                 impacts), citizen complaints, the presence of large
                                 impoundments, water quality issues, and whether the
                                 operation involves primarily underground or surface mining.

Cost Savings Analysis            We estimated that the four states could save $1.57 million a
                                 year by reducing the number of inspections performed on
                                 low-risk Phase II permits7 from twelve to four, on low-risk


6
  Impoundments are any water, sediment, slurry, or other liquid or semi-liquid holding structures and
depressions, either naturally formed or artificially built.
7
  A Phase II permit has received its Phase I bond release but has not completed sufficient reclamation to
receive its Phase II release.


                                                     7
                                 Phase III permits8 from four to two, and eliminating
                                 approximately half of all inspections on Tennessee’s low-risk
                                 abandoned permits. The methodology used to calculate cost
                                 savings is described in Appendix 2.

                       Table 1 - Potential Cost Savings for Low-Risk Permits

                   Number of Permits in          Percent     Savings from Fewer Inspections
                                                  (%)                                               Overall
    State      Phase     Phase                                           Phase
                                 Abandoned        Low-      Phase II                Abandoned       Savings
                II        III                                             III
                                                  Risk
Kentucky         380       87                       90         0*       $ 93,960                   $ 93,960
Pennsylvania     274       535                      90      $591,840    $577,800                   $1,169,640
Tennessee        35        34         174           90      $ 75,600    $ 36,720     $46,980**     $ 159,300
West
Virginia         309       141                      90         0*       $152,280                   $ 152,280
Total
Savings                                                     $667,440    $860,760      $46,980      $1,575,180
*Phase II permits in Kentucky and West Virginia already receive only four complete inspections per year.
**To be conservative, we reduced the number by of low-risk permits by 45 percent to do the abandoned
mine calculations.

                                 To achieve these savings OSM may need to revise the
                                 definition of an active permit in its regulations to reduce the
                                 number of required inspections on low-risk permits. For
                                 example, Phase II permits could be reclassified as inactive
                                 because active mining is completed, they have been approved
                                 for Phase I bond release, and as a result, their risk is
                                 decreased.


Suggestions for                  During our evaluation, we interviewed OSM and state
Reducing Costs                   inspectors and managers with firsthand knowledge of the
                                 regulatory program. Based on their experience, they provided
                                 us with the following suggestions for reducing costs:

                                      •     Increasing the use of helicopter over-flights for partial
                                            inspections
                                      •     Using digital cameras to decrease film developing
                                            costs for inspection photos
                                      •     Eliminating unnecessary analysis criteria for lab
                                            samples
                                      •     Simplifying grant requirements (possibly have 3-year
                                            grants instead of 1-year)
                                      •     Implementing electronic permitting
                                      •     Decreasing OSM inspections because they duplicate
8
 A Phase III permit has received its Phase II bond release but all the requirements of a Phase III release
have not yet been met.


                                                      8
                                      state work
                                 •    Reducing travel costs by bringing OSM trainers to the
                                      states rather than transporting inspectors to out-of-state
                                      classes
                                 •    Improving quality of underground mapping

Compliance with              OSM has two regulatory program performance measures:
Government                   acres of Phase III bond releases and percentage of sites free of
                             off-site impacts. We concluded that the bond release measure
Performance and
                             is not appropriate because it is not under the control of OSM
Results Act (GPRA)           or state managers and, it is output rather than outcome
                             oriented. Although we found the off-site impacts measure is
                             appropriate, we identified some weaknesses in the GPRA data
                             collection and verification processes for both measures.
                             Decision makers may not be provided accurate performance
                             data because the methods used to collect off-site impact data
                             for two of the states visited are deficient and because OSM
                             does not verify performance data provided by the states. In
                             addition, procedures developed to comply with January 2003
                             guidance from the Department should ensure that both staff
                             and managers are held accountable for data accuracy.

Goal Appropriateness         OSM’s measure for acres of Phase III bond release is not
                             appropriate because neither OSM nor the state regulatory
                             authorities control when these acres are released. Mining
                             operators actually determine the timing of bond releases
                             through their applications to the regulatory authority.

                             Prior to our evaluation, OMB’s 2003 PART Evaluation9 also
                             determined that both of OSM’s regulatory performance
                             measures were output rather than outcome oriented. OSM
                             managers told us the bureau was working on revising these
                             measures. A better outcome measure would demonstrate the
                             success of the states and OSM in ensuring that reclaimed
                             surface mines are returned to their pre-mining use and are free
                             of post-reclamation adverse effects.

Data Collection              Although we did not test OSM’s GPRA data for errors, we did
Weaknesses                   identify problems with the methodology used to collect the
                             off-site impact data, which could result in inaccuracies. OSM
                             obtained most of its off-site impact and bond release
                             performance data from the states. In Pennsylvania and
                             Kentucky, the OSM field offices review the state inspection

9
 The purpose of OMB’s Program Assessment Rating Tool (PART) is to systematically measure program
performance and results. PART uses the framework established in GPRA of long-term outcome goals
supported by annual performance goals.


                                                9
               reports to determine if a violation resulted in an off-site
               impact or how severe the impact was. We believe these
               determinations should be made by the state inspector, who
               actually observes site conditions. For instance, in the state of
               West Virginia, the state and OSM have a performance work
               plan agreement for the state to provide the off-site impact data
               to OSM annually.

               The data collection methods used by OSM in Pennsylvania
               and Kentucky need to be improved to ensure accurate
               performance data. In Pennsylvania, the annual performance
               data for off-site impacts is projected based on OSM’s review
               of 6 months of the state inspection reports’ data. Kentucky
               only reports off-site impacts resolved through enforcement
               action to OSM. As a result, GPRA data may be understated if
               those impacts are not resolved by the end of the reporting
               year.

               In addition, OSM did not adequately disclose in 2002 that the
               performance data reported for GPRA was primarily obtained
               from the states. Also, OSM did not assess or identify possible
               limitations with the states’ data.

Lack of Data   Our discussions with OSM field office personnel indicated
Verification   that there were no processes in place to verify GPRA
               performance data in 2002. In compliance with guidance on
               performance data verification received from DOI in January
               2003, OSM developed a Validation and Verification
               Assessment Form. This form is a checklist with 26 items to
               be completed by a senior OSM official. However, the
               departmental guidance emphasizes that both staff and
               management must take accountability for data accuracy. To
               ensure accuracy, performance data should be verified from the
               bottom-up by staff most familiar with day-to-day program
               activities.

               OSM also needs adequate procedures to accumulate sufficient
               information to support the data included in the bureau GPRA
               report. Field offices should maintain a list of the GPRA
               accomplishments reported, which would allow the states,
               regional and national offices to match and verify the
               performance data. For example, we found that bond release
               acreage provided by the state offices in Pennsylvania and
               West Virginia did not match the acreage in the GPRA report.




                               10
RECOMMENDATIONS

                    We recommend that the Director:

                       1. Consider using risk assessment to determine if the
                          inspection frequency on post-Phase I and Phase II
                          bond release and abandoned permits could be reduced.

                       2. Consider the feasibility of implementing cost saving
                          suggestions provided by OSM and state inspectors and
                          mangers.

                       3. Revise the bond release GPRA measure to ensure it is
                          outcome-based to the extent possible and is under the
                          control of OSM or state managers.

                       4. Ensure that performance agreements with primacy
                          states address how data will be collected and provided
                          to OSM on all off-site impacts that are identified on
                          state inspections.

                       5. Ensure there is adequate disclosure of the sources and
                          limitations of GPRA performance data.

                       6. Establish procedures to ensure that accountability for
                          the accuracy of the performance data is shared by both
                          staff and management.


Agency Response     OSM’s responses to the draft report and our replies are
and Office of       summarized below.
Inspector General
                    Regarding Recommendation 1, OSM did not concur and
Reply               stated that it would not be prudent to revise Federal rules to
                    further reduce inspection frequency for inactive or abandoned
Recommendation 1    sites. The response noted; however, that there is some
                    flexibility on the part of the individual States to reduce
                    inspection frequency. Also, OSM indicated that risk-based
                    assessment is already built into the inspection process.
                    Finally, OSM did not believe that our forecast of cost savings
                    will occur.

                    While OSM disagreed with Recommendation 1, it did not
                    provide detailed support for its positions. As OSM and the


                                    11
                   states performed approximately 86,000 inspections in FY
                   2002 that did not result in a notification of violation or a
                   cessation order, we request that OSM submit additional
                   support for its position that it would not be prudent to reduce
                   inspection frequency. We have classified the
                   Recommendation as unresolved and request that OSM
                   provide additional information regarding its position on this
                   matter.

Recommendation 2   OSM considered the cost savings suggestions in
                   Recommendation 2 in their response, and so we classified the
                   Recommendation as resolved and implemented.

Recommendation 3   OSM did not concur with Recommendation 3, maintaining
                   that the bond release measure is outcome-based and shows
                   program results as intended by GPRA. Both the OIG and
                   OMB have determined that the number of acres released from
                   Phase III bonds is an output, not outcome measure. We
                   believe it’s an output because it measures an activity rather
                   than effect, benefits, or results. We also note that OSM
                   managers and staff identified the measure as problematic
                   because they lacked control over bond releases. We have
                   asked OSM to reconsider its non-concurrence with our
                   Recommendation related to this measure.

Recommendation 4   OSM did not concur with the original Recommendation 4.
                   Subsequently, we discussed this Recommendation with an
                   OSM official and agreed on effective alternative action. We
                   revised the Recommendation based on OSM’s agreement to
                   ensure that state performance agreements address how data
                   will be collected and provided to OSM on all off-site impacts
                   that are identified during state inspections. We consider this
                   Recommendation resolved, but not implemented until OSM
                   makes the appropriate changes to state performance
                   agreements. The officials responsible for implementation are
                   OSM Regional Directors Brent Wahlquist, Charles Sandberg,
                   and Al Klein. The target implementation date is June 30,
                   2005.

Recommendation 5   OSM concurred with Recommendation 5. In addition, OSM
                   provided us with an excerpt from their 2005 budget
                   justification/2003 performance report, which disclosed that
                   OSM obtains their performance information from the states.
                   We consider the Recommendation resolved and implemented.




                                   12
Recommendation 6   OSM also concurred with Recommendation 6. In response to
                   Recommendation 6, OSM also agreed to develop procedures
                   to ensure that data verification and validation is conducted at
                   both staff and management levels and is identified in future
                   documents. These actions, when implemented, would resolve
                   our concerns about data collection weaknesses, disclosure of
                   data sources, and lack of data verification. The official
                   responsible for implementation is Ruth Stokes, Chief, Office
                   of Planning, Analysis and Budget. The target implementation
                   date is June 30, 2005.




                                   13
                                                                         Appendix 1
Evaluation Scope and Prior Audit Coverage

Evaluation Scope       We performed evaluation work in three primacy states--
                       Kentucky, Pennsylvania, and West Virginia--and Tennessee,
                       which is a Federal program state. We conducted the
                       evaluation between July and November of 2003 and focused
                       primarily on surface mining regulatory activities in 2001 and
                       2002.

                       We conducted our work in accordance with the President’s
                       Council on Integrity and Efficiency’s Quality Standards for
                       Inspections. We included such tests of records and other
                       procedures that were considered necessary under the
                       circumstances. We concluded our work at the end of the
                       survey phase because we determined that the continuation of
                       the evaluation would not identify any additional weaknesses.
                       Therefore, the scope of the work was limited to those
                       procedures performed during the survey phase. As a result,
                       our review of management controls and testing of state
                       inspections was limited.

Prior Audit Coverage   During the past 10 years, neither the General Accounting
                       Office nor the Office of Inspector General has issued any
                       reports on the state operated coal regulatory program.




                                       14
                                                                                       Appendix 2
                                                                                       Page 1 of 2
Methodology

                                  During the evaluation, we obtained and reviewed inspection
                                  and bond release flowcharts and process narratives and
                                  SMCRA and OSM regulatory requirements. In addition, we
                                  reviewed OSM budget justifications and the 2001 and 2002
                                  OSM annual state evaluations for the four states. We also had
                                  discussions with state and OSM inspectors and managers, as
                                  well as industry and environmental and citizens’ group
                                  representatives, and observed on-site surface mining
                                  inspections in West Virginia and Tennessee.

                                  To ensure compliance with SMCRA and OSM regulatory
                                  requirements by OSM and the primacy states, we randomly
                                  selected a small number of permits from each of the four
                                  states (49 total) and tested the inspection records to verify that
                                  the correct number, type, and frequency of inspections had
                                  been performed in 2001 and 2002. For Phase III bond
                                  releases, we reviewed 2002 inspection records and citizen
                                  complaints, when possible, to confirm that there were no
                                  problems in the year the bond was released.

                                  To calculate the estimated savings from reducing the number
                                  of inspections on low-risk sites we performed the following
                                  steps:

                                       •   Calculated an estimate of the cost of an inspection in
                                           the four states by dividing the 2002 budget for
                                           inspections and enforcement by the number of
                                           inspections performed in 2002.10 We used $600 as an
                                           average cost of a complete inspection, or $300 for a
                                           partial inspection.

                                       •   Assumed that 90 percent of the sites in Phase II and
                                           Phase III could be classified as low-risk.




10
     We assumed that two partial inspections were equal to one complete inspection.


                                                     15
                                                                                          Appendix 2
                                                                                          Page 2 of 2

                                    •   For Phase II units, multiplied the number of low-risk
                                        sites by $2,400 ($300 per inspection X 8 partial
                                        inspections) to determine the cost savings from
                                        reducing the number of required inspections from
                                        eight partial and four complete to just four complete.

                                    •   For Phase III units, multiplied the number of low-risk
                                        sites by $1,200 ($600 per inspection X 2 complete
                                        inspections) to determine the cost savings from
                                        reducing the number of required inspections from four
                                        complete to just two complete.

                                    •   For abandoned units, multiplied the number of low-
                                        risk sites by $600 ($600 per inspection X 1 complete
                                        inspection) to determine the cost savings from
                                        reducing the number of required inspections from one
                                        complete to zero complete inspections for low-risk
                                        abandoned permits in Tennessee. 11

                               We did not test the accuracy of GPRA data reported because
                               the evaluation was concluded at the end of survey. We did,
                               however, interview state and OSM staff to determine if the
                               data collection methods used were reasonable.




11
 To be conservative, we reduced the number by of low-risk sites by half (45 percent) to do the abandoned
mine calculations.


                                                   16
                                                                     Appendix 3
Sites Visited and Outside Contacts

Sites Visited      We visited and/or contacted the following OSM and State
                   Offices:

                             Office                 Location
                   OSM Headquarters Office       Washington, DC
                   OSM Appalachian Regional
                    Office                       Pittsburgh, PA
                   OSM State Office              Lexington, KY
                   OSM State Office              Harrisburg, PA
                   OSM State Office              Knoxville, TN
                   OSM State Office              Charleston, WV
                   OSM Field Office              Johnstown, PA
                   Kentucky State Office         Frankfort, KY
                   Pennsylvania State Office     Harrisburg, PA
                   West Virginia State Office    Nitro, WV
                   Cambria District Office       Ebensburg, PA

Outside Contacts   Kentucky Coal Association
                   Kentucky Resources Council
                   Tri-State Citizens Mining Network, Pennsylvania
                   Save Our Cumberland Mountains, Tennessee
                   Tennessee Coal Association
                   West Virginia Highland Conservancy
                   West Virginia Coal Association




                                  17
     Appendix 4




18
19
20
21
22
23
24
25
                                                      Appendix 5
Status of Audit Recommendations

   Recommendation            Status        Action Required

       2 and 5      Resolved and      No further action is
                    implemented.      required.

       4 and 6      Resolved; not     No further response to the
                    implemented.      Office of Inspector General
                                      is required. The
                                      recommendation will be
                                      referred to the Assistant
                                      Secretary for Policy,
                                      Management and Budget for
                                      tracking of implementation.

       1 and 3      Unresolved        Reconsider and provide a
                                      response that states
                                      concurrence or non-
                                      concurrence with the
                                      recommendation. If
                                      concurrence, provide a
                                      corrective action plan that
                                      includes the estimated target
                                      date and titles of officials
                                      responsible for
                                      implementation.




                                 26
